SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035

Scott Peters
Reg. No. M52851
Menard Medium Security Unit
711 Kaskaskia Street
Menard IL 62259

f

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

September 30, 2020
In re:

MTGLQ Investors, LP, respondent, v. Scott Peters, petitioner.
Leave to appeal, Appellate Court, Second District.

126010
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 11/04/2020.
Michael J. Burke, J., took no part.

Very truly yours,

Com
Clerk of the Supreme Court

r.

No. 2-19-0395
Summary Order filed February 19, 2020
NOTICE: This order was filed under Supreme Court Rule 23(c)(2) and may not be cited
as precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).

IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT
MTGLQ INVESTORS, LP,

)
)

Plaintiff-Appellee,

)
)

v.

)

SCOTT PETERS, a/k/a Scott B. Peters,
STANISLAWA GLOWACZ, UNKNOWN
OWNERS AND NONRECORD
CLAIMANTS, and LISA JOYCE,
Defendants
(Scott Peters, Defendant-Appellant)

Appeal from the Circuit Court
of McHenry County.

No. 15-CH-1145

)
)
)
)
)
)

,)
)
)

Honorable
Suzanne C. Mangiamele,
Judge, Presiding.

JUSTICE SCHOSTOK delivered the judgment of the court.
Justices Jorgensen and Burke concurred in the judgment.
SUMMARY ORDER
If 1

^ this foreclosure action, defendant, Scott Peters, appearingp/'o se, appeals the trial court’s
r

grant of summary judgment in favor of plaintiff, MTGLQ Investors, LP (collectively referred to
as plaintiff with its predecessor-in-interest). We dismiss the appeal.
H2

L
!■

In March 2016, plaintiff filed an amended mortgage foreclosure complaint against

defendant. Defendant filed several pro se documents admitting some allegations and stating that
■

-------------2:~L^~r

No. 2-19-0395

he lacked sufficient information to admit or deny others. He then filed

a counterclaim broadly

alleging fraud and lack of standing. He also raised multiple affirmative defenses.

IT 3

Plaintiffs motion to dismiss the counterclaim was granted. Plaintiff then moved for

summary judgment on the affirmative defenses, arguing a lack of a factual and legal basis for them
and attaching relevant documents. Defendant replied with a memorandum and affidavit, arguing
m a conclusory manner and . without .cogent legal argument that plaintiff engaged in fraud and

f

lacked standing. He also introduced various due process and discovery arguments . Plaintiff filed

?

a reply, again arguing that defendant failed to support his claims factually and that they lacked
i)
1!

legal merit. The trial court granted the motion.

;

II4

Plaintiff next moved for summary judgment on the complaint and entry of foreclosure and

sale, attaching relevant affidavits and documents showing defendant’s mortgage default.
Defendant responded, again in a conclusory manner, and did not file a counter-affidavit or other
sworn evidence. He included attachments with difficult-to-follow allegations of fraud, with no
cogent legal argument. The trial court granted plaintiff summary judgment and denied defendant’s
motion to reconsider.

Ll

r

Defendant appeals, contending that the trial court erred in granting

plaintiff s motions for summary judgment.

K
i-

If 5

Defendant’s appellate brief is difficult to foiiow and violates multiple rules that govern

appeals. In particular, Illinois Supreme Court Rule 341(h)(6) (eff. May 25, 2018) requires that an

f
i

appellant s brief contain a statement of the facts necessary to an understanding of the case, stated
fairly and without argument or comment, and with appropriate citations to the record on appeal.
Plaintiffhas included a statement of facts that fails to cite the record at all.
If 6

Further, Illinois Supreme Court Rule 341 (h)(7) (eff. May 25, 2018) requires that the brief

contain an argument section, “which shall contain the contentions of the appellant and the reasons

L

t:

*
*•.
|'
!i ■

-2t

No. 2-19-0395

If 9

'•I

Defendant has also moved to strike plaintiff s brief for what he alleges are similar failures.

However, plaintiffs brief follows the rules and sufficiently addresses the issues on appeal.
Accordingly, defendant’s motion is denied.
110

Despite our dismissal, we also note that defendant’s appeal would fail on the merits.

Plaintiffs pleadings alleged defendant’s default and included the necessary copies of the mortgage
and promissory note. Additionally, plaintiff filed an affidavit in support of its motion for summary
judgment, providing specific details concerning defendant’s default. Throughout the process,
defendant provided only broad conclusory allegations. “Denials in a defendant’s answer do not
create a material issue of genuine fact to prevent summary judgment.” Parkway Bank & Trust Co.
v. Korzen, 2013 IL App (1st) 130380, f 49. “When a party moving for summary judgment files
supporting affidavits containing well-pleaded facts, and the party opposing the motion files no
counteraffidavits, the material facts set forth in the movant’s affidavits stand as admitted.” Id.
“The opposing party may not stand on his or her pleadings in order to create a genuine issue of
material fact. Id. Defendant contends that his conclusory affidavit and unsworn verification under
section 1-109 of the Code of Civil Procedure (735 ILCS 5/1-109 (West 2018)) was enough. But
those were simply in support of the conclusions stated in defendant’s pleadings. Thus, “[t]he test
of the motion for summary judgment lies in the entire record, pleadings, affidavits and counter­
affidavits.” Klesath v. Barber, 4 Ill. App. 3d 86, 88 (1972). Here, defendant failed to provide
legal and(evidentiary support)to back his conclusory claims.
H11

Appeal dismissed.

(3e CfpdSE

^ Co

-4-

bxZCod

PW»vW

f

